Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 NATIONAL HEALTH LABORATORY
SERVICE DID NOT ALWAYS MANAGE
PRESIDENT’S EMERGENCY PLAN FOR
  AIDS RELIEF FUNDS OR MEET
 PROGRAM GOALS IN ACCORDANCE
  WITH AWARD REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       August 2013
                                                      A-05-12-00024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (P.L.
No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services (HHS) Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other in-country partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year 2009, CDC “obligated” PEPFAR funds totaling $1.2
billion. CDC awarded these funds through cooperative agreements, which it uses in lieu of
grants when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The regulations that apply to Federal grants
also apply to cooperative agreements.

Through a 5-year cooperative agreement (grant number 5U2GPS001328), CDC awarded
PEPFAR funds totaling $12,868,424 to National Health Laboratory Service (NHLS) for the
budget period September 30, 2009, through September 29, 2010. NHLS’s mission is to provide
cost-effective and professional laboratory medicine through state-of-the art technology to all
South Africans. It entered into a cooperative agreement with CDC to help implement a
coordinated national response to the HIV/AIDS epidemic. The goals of the cooperative
agreement were to strengthen NHLS’s laboratory services by:

   •   assuring of the accuracy and quality of testing services;

   •   building long-term sustainability of quality laboratory systems; and

   •   addressing existing gaps in laboratory testing outreach, penetration, and quality of
       services.

OBJECTIVE

Our objective was to determine whether NHLS managed PEPFAR funds and met program goals
in accordance with the award requirements.


                                                 i
SUMMARY OF FINDINGS

NHLS did not always manage PEPFAR funds or meet program goals in accordance with award
requirements. With respect to financial management, specifically financial transaction testing,
$599,817 of the $736,017 was allowable, but $133,821 was unallowable and $2,379 was
potentially unallowable. Of the 48 financial transactions tested:

   •    30 transactions totaling $599,817 were allowable;

   •    17 transactions totaling $133,821 were unallowable, including 15 items that were not
        funded nor approved in the cooperative agreement ($68,857), 1 item that was partially
        unrelated to PEPFAR ($44,751), and 1 item that was canceled and never paid ($20,213);
        and

   •    1 transaction included $2,379 of potentially unallowable value-added taxes (VAT).

Additionally, NHLS:

   •    used $49,568 of PEPFAR funds to pay for additional unallowable catering expenses,

   •    did not accurately report PEPFAR expenditures for this cooperative agreement on its
        financial status report (FSR) submitted to CDC, and

   •    did not submit its annual financial audit as required by Federal regulations.
Our program management review showed that, of the 30 accomplishments sampled from the
annual progress report, 2 items were not supported by documentation and 3 items were only
partially supported.

NHLS’ policies and procedures did not ensure that it:

   •    reported only allowable expenditures under the cooperative agreement and accurate costs
        on its FSR,

   •    maintained effective control and accountability over grant-related assets,

   •    included only items in the progress report that it could fully support, and

   •    submitted the annual financial audit report as required by Federal regulations.

RECOMMENDATIONS

We recommend that NHLS:

    •   refund to CDC $133,821 of unallowable expenditures;


                                                 ii
   •   work with CDC to resolve whether the $2,379 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   refund to CDC an additional $49,568 of unallowable catering expenses;

   •   develop and implement policies and procedures for:

       o ensuring that PEPFAR funds are not used for unallowable expenditures and

       o properly tracking all grant fixed assets;

   •   use the exchange rate in effect at the time it prepares the FSR;

   •   develop and implement policies and procedures to:

       o account for award adjustments and expenses in the general ledger and

       o   reconcile progress report information to supporting documentation; and

   •   submit annual audit reports in a timely manner to the applicable United States agency.


NATIONAL HEALTH LABORATORY SERVICE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NHLS generally disagreed with our first and third
recommendations and generally agreed with our remaining recommendations. After reviewing
NHLS’s comments, we maintain that our findings and recommendations are valid.




                                                iii
                                                        TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              President’s Emergency Plan for AIDS Relief .................................................... 1
              Centers for Disease Control and Prevention ...................................................... 1
              National Health Laboratory Service .................................................................. 2
              Federal Requirements and Departmental Policies ............................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          FINANCIAL MANAGEMENT .................................................................................... 5
               Financial Transaction Testing ............................................................................ 5
               Additional Unallowable Catering Expenses ...................................................... 6
               Financial Status Reports .................................................................................... 6

          PROGRAM MANAGEMENT ...................................................................................... 7
              Progress Report Testing ..................................................................................... 7

          NON-FEDERAL AUDIT REPORTS............................................................................ 7

          INADEQUATE POLICIES AND PROCEDURES ...................................................... 8

          RECOMMENDATIONS ............................................................................................... 8

          OTHER MATTERS....................................................................................................... 9

          NATIONAL HEALTH LABORATORY SERVICE COMMENTS ............................ 9

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 10

APPENDIX: NATIONAL HEALTH LABORATORY SERVICE COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act),
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The Department of Health
and Human Services (HHS) receives PEPFAR funds from the Department of State through a
memorandum of agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195),
as amended, and the 2003 Act, as amended.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other public health
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

For fiscal year (FY) 2009, CDC obligated 1 PEPFAR funds totaling $1.2 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 2 In response to a Funding Opportunity Announcement (FOA), 3
CDC awarded National Health Laboratory Service (NHLS) grant number 5U2GPS001328
through a cooperative agreement for the project period September 30, 2008, through September
29, 2013.



1
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives (GPD) 1.02, the highest level of
policy within HHS that governs grants.

2
    The regulations that apply to Federal grants also apply to cooperative agreements.
3
 FOA Number CDC-RFA-PS08-868 is entitled: Strengthening the Delivery and Quality of Laboratory Services
and Enhancing Healthcare Worker and Laboratory Safety in the Republic of South Africa Under the President’s
Emergency Plan for AIDS Relief.


                                                            1
National Health Laboratory Service

NHLS’s mission is to provide cost-effective and professional laboratory medicine through state-
of-the art technology to all South Africans. NHLS entered into a cooperative agreement with
CDC to help implement a coordinated national response to the HIV/AIDS epidemic. The goals
of the cooperative agreement were to strengthen NHLS’s laboratory services by:

   •    assuring the accuracy and quality of testing services;

   •    building long-term sustainability of quality laboratory systems; and

   •    addressing existing gaps in laboratory testing outreach, penetration, and quality of
        services.

Federal Requirements and Departmental Policies

The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The grant
administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of
higher education, and commercial organizations. The HHS Grants Policy Statement (GPS),
which provides general terms and conditions and HHS policies for grantees and others interested
in the administration of HHS grants, specifies that foreign grantees must comply with the
requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign organization
(GPS II-113). Thus, the rules in 45 CFR part 74 apply to a foreign nonprofit organization.

This cooperative agreement was subject to the grant administration rules in 45 CFR part 74 and
the terms and conditions detailed in the notice of award (NOA). Furthermore, CDC incorporated
by reference the FOA and the application that CDC received from NHLS on June 15, 2010, as a
part of this award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NHLS managed PEPFAR funds and met program goals
in accordance with the award requirements.

Scope

Our audit covered the budget period September 30, 2009, through September 29, 2010. This
budget period was the second year of a 5-year cooperative agreement. During the budget period
under review, CDC awarded NHLS $12,868,424.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at NHLS’s offices in Johannesburg, South Africa.




                                                 2
Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
        NHLS’s policies and procedures;

    •   interviewed and conducted meetings with CDC South Africa officials to determine the
        extent of the technical assistance they provided to NHLS;

    •   interviewed and conducted meetings with NHLS officials to determine their processes
        and procedures related to financial accounting and reporting, and program goals and
        accomplishments;

    •   worked with NHLS staff in attempting to reconcile NHLS’s financial status report (FSR) 4
        to its accounting records for the budget period under review;

    •   selected and reviewed a judgmental sample of 48 financial transactions with expenditures
        totaling $736,017 from the grant award of $12,868,424, and included expenditures such
        as:

             o restricted funds, if specified on the NOA;

             o unallowable costs, such as indirect costs, if specified on the NOA;

             o transactions above/below the average transaction amount in an expenditure
               category;

             o consulting and government fees; and

             o other unusual transactions;

    •   compared the accomplishments described in NHLS’s annual progress report to the
        cooperative agreement’s goals and objectives;

    •   selected a judgmental sample of 30 accomplishments described in NHLS’s annual
        progress report and reviewed supporting documentation to determine whether NHLS met
        program goals and objectives; and

    •   conducted site visits at the Charlotte Maxeke Johannesburg Hospital and the
        Poliomyelitis Research Foundation Training Centre in South Africa.



4
 Pursuant to 45 CFR § 74.52(a)(1)(iv), FSRs are due to the CDC Grants Management Office 90 days after the end
of the budget period. FSRs provide information to CDC on current expenditures and on carryover balances (if any).
In addition, these documents are considered in future funding decisions.

                                                        3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

NHLS did not always manage PEPFAR funds or meet program goals in accordance with award
requirements. With respect to financial management, specifically financial transaction testing,
$599,817 of $736,017 was allowable, but $133,821 was unallowable and $2,379 was potentially
unallowable. Of the 48 financial transactions tested:

      •    30 transactions totaling $599,817 were allowable;

      •    17 transactions totaling $133,821 were unallowable, including 15 items that were not
           funded nor approved in the cooperative agreement ($68,857), 1 item that was partially
           unrelated to PEPFAR ($44,751), and 1 item that was canceled and never paid ($20,213);
           and

      •    1 transaction included $2,379 of potentially unallowable value-added taxes (VAT). 5

Additionally, NHLS:

       •   used $49,568 of PEPFAR funds to pay for additional unallowable catering expenses,

      •    did not accurately report PEPFAR expenditures for this cooperative agreement on its
           financial status report (FSR) submitted to CDC, and

      •    did not submit its annual financial audit as required by Federal regulations.
Our program management review showed that, of the 30 accomplishments sampled from the
annual progress report, two items were not supported by documentation and three items were
only partially supported.

NHLS’ policies and procedures did not ensure that it:

      •    reported only allowable expenditures under the cooperative agreement and accurate costs
           on its FSR,

      •    maintained effective control and accountability over grant-related assets,

      •    included only items in the progress report that it could fully support, and

5
    VAT is a form of consumption tax.


                                                     4
    •   submitted the annual financial audit report as required by Federal regulations.

FINANCIAL MANAGEMENT

Financial Transaction Testing

Pursuant to 2 CFR part 230, Appendix A, § A(2), to be allowable under an award, costs must be
reasonable for the performance of the award and be allocable thereto under these principles.
Pursuant to 2 CFR part 230, Appendix A, § A(4), a cost is allocable to a particular cost objective,
such as a grant, contract, project, service, or other activity if it can be distributed in reasonable
proportion to the benefits received. Pursuant to NOA, section III, this award is based on the
application submitted to, and as approved by, CDC and is subject to applicable Federal grant
regulations, HHS grants policies, and the terms and conditions laid out in the award notice.

Pursuant to 45 CFR § 74.21(b)(3), recipients’ financial management systems must provide for
effective control and accountability for all funds, property, and other assets. Recipients shall
adequately safeguard all such property and assure that it is used solely for authorized purposes.

Pursuant to the GPS (section II-114), certain costs, including VAT are unallowable under foreign
grants and domestic grants with foreign components. Also, bilateral agreements with foreign
governments may stipulate an exemption from paying the VAT for those contractors and
grantees that are funded by the United States and providing foreign aid. 6

Of the 48 transactions totaling $736,017, 30 transactions totaling $599,817 were allowable, but
17 transactions totaling $133,821 were not (see table below) and 1 transaction totaling $2,379
was potentially unallowable.
                           Unallowable Financial Transactions
                                                     Sample
                     Category                      Transactions                                Total
    Not Approved in Cooperative Agreement:
               Local Accommodation Expenses              1                                         $32,812
               Delivery Charges                          1                                          19,719
               Catering Expenses                         3                                           8,321
               Equipment                                 9                                           5,662
               Research Consumables                      1                                           2,343
    Unallowable for Other Reasons:
               Videoconferencing Equipment               1                                          44,751
               Hotel Group Canceled Payment              1                                          20,213
    Total                                               17                                        $133,821

6
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommended that NHLS work with CDC to resolve the issue.



                                                       5
For 15 sample transactions, NHLS paid for various costs that were not approved under the
cooperative agreement including 1 missing piece of equipment. One sample item represented an
expenditure of $89,501 for videoconferencing equipment. Although this purchase was requested
in the original application and approved by CDC, NHLS staff informed us that the equipment
was used approximately half of the time for the benefit of other programs or for general
operations. The purchase did not solely benefit PEPFAR activities, and thus the expenditure
should have been allocated among benefitting programs appropriately. For another sample item,
NHLS provided support that a $20,213 payment to a hotel group was canceled but the payment
remained in the general ledger. For one additional sample item, NHLS did not remove from the
FSR potentially unallowable VAT of $2,379.

Some internal controls over expenditures were not in place. Principal investigators did not
approve all expense reconciliations monthly in accordance with NHLS policy. Also, NHLS
could not provide evidence that management approved 7 transactions. NHLS did not have
procedures in place to ensure that it made only authorized expenses. In addition, controls were
not in place to properly track fixed assets, including updating the asset register and ensuring that
all grant fixed assets were tagged appropriately.

Additional Unallowable Catering Expenses

Pursuant to the GPS (section II-36), costs for meals are generally unallowable with certain
exceptions: 1) subjects and patients under study, 2) specifically approved as part of the project
or program activity, 3) employee meals as part of compensation, 4) as part of per diem or
allowance for allowable travel and 5) integral part of a conference. Pursuant to the NOA, section
III, this award is based on the application submitted to, and approved by, CDC.

During the audit period, NHLS used $49,568 of PEPFAR funds to pay for additional catering
expenses, 7 specifically payments to caterers for meals at training sessions and meetings. The
catering expenses did not fall under any of the exceptions in the GPS. Moreover, the budget
submitted in the award application was very detailed and it did not include any such expenses.
NHLS recorded these unallowable catering expenses in a separate general ledger account and
claimed these expenses on its FSR.

Financial Status Reports

Pursuant to 45 CFR § 74.52(a)(1)(iv), recipients must submit an FSR no later than 30 days after
the end of each specified report period for quarterly and semiannual reports and 90 days after the
end of the specified report period for annual and final reports. The NOA provides the due date
for the FSRs.

Pursuant to 45 CFR § 74.21(b)(1), a recipient’s financial management reporting system must be
able to demonstrate an accurate, current, and complete disclosure of the financial results of grant
funded activities in accordance with the financial reporting requirements of the grant. Pursuant


7
    These catering expenses were identified outside of our review of the 48 judgmentally selected transactions.

                                                            6
to the GPS (Section II-114), financial reports must be stated in U.S. dollars using the currency
rate in effect at the time of submission.

NHLS did not use the applicable exchange rate in effect at the time the FSR was prepared.
Instead, it used a standard exchange rate of 7.5 Rand to $1. Additionally, NHLS staff did not
account for all award adjustments and expenditures within the general ledger. As a result, NHLS
staff was unable to reconcile a $15,385 difference between the FSR and the general ledger. The
general ledger should include all grant-funded activities to ensure accurate financial reporting.

PROGRAM MANAGEMENT

Progress Report Testing

Pursuant to 45 CFR § 74.51(b), recipients are required to submit annual progress reports, unless
the awarding agency requires quarterly or semiannual reports. Annual reports are due 90 days
after the end of the grant year. Quarterly and/or semiannual reports are due 30 days after the
reporting period. Final progress reports are due 90 days after the expiration or termination of the
award. The NOA provides the specific due dates for progress reports.

Pursuant to 45 CFR § 74.51(d) progress reports should compare actual accomplishments to the
established objectives for the period. Also, progress reports should contain the reasons
objectives were not met and, when appropriate, explanations of cost overruns or high unit costs.

Pursuant to 45 CFR § 74.53, recipients are required to retain financial and statistical records and
supporting documents and all other records pertinent to the award for 3 years from the
submission date of the final expenditure report for the funding period.

The 30 accomplishments that we sampled from the progress report were related to the goals and
objectives of the cooperative agreement.

Documentation supported 25 of the 30 accomplishments. However, no documentation supported
2 of the accomplishments, which were related to laboratory worker training and mobile
laboratory services. NHLS could not provide documentation supporting that a technical advisory
committee was formed for laboratory training. NHLS also could not provide documentation to
support progress on the eight mobile laboratory sites as reported in the progress report.

The remaining three accomplishments, for quality assurance, information systems integration,
and specimen tracking, were only partially supported by documentation. For example, the
progress report stated that external quality control reports were submitted quarterly, whereas
support showed that these reports were only submitted semiannually.

NON-FEDERAL AUDIT REPORTS

The GPS, page II-115, states that foreign recipients are subject to the same audit requirements as
commercial organizations specified in 45 CFR § 74.26(d). Pursuant to 45 CFR § 74.26(d)(1),
recipients that are commercial organizations are required to file one of the following types of

                                                 7
audits if they expended more than $500,000 in one or more Federal awards during an FY: a
financial-related audit or an audit that meets the requirements of OMB Circular A-133.

Pursuant to OMB Circular A-133, audits must be completed annually and submitted for review
within the earlier of 30 days after receipt of the auditor’s report or 9 months after the end of the
organization’s FY, unless a longer period of time is agreed to by the agency (subpart B §__.200
and subpart C §__.320). 8 Pursuant to NOA, section IV, item 15, the partner must submit a copy
of the completed audit to HHS.

While the recipient received grant-specific audits during this period, the recipient did not forward
a copy of the audit reports to HHS’s National External Audit Review Center (NEAR). As a
result, HHS’s NEAR was unable to monitor recipient audit findings. NHLS was not aware of
this requirement, and NHLS mentioned that CDC told them to send all reports directly to CDC.

INADEQUATE POLICIES AND PROCEDURES

These errors occurred because the NHLS did not have adequate policies and procedures to
ensure that it:

    •   reported only allowable expenditures under the cooperative agreement and accurate costs
        on its FSR,

    •   maintained effective control and accountability over grant-related assets,

    •   included only items in the progress report that it could fully support, and

    •   submitted the annual financial audit report as required by Federal regulations.

RECOMMENDATIONS

We recommend that NHLS:

    •    refund to CDC $133,821 of unallowable expenditures;

    •   work with CDC to resolve whether the $2,379 of VAT was an allowable expenditure
        under the cooperative agreement;

    •    refund to CDC an additional $49,568 of unallowable catering expenses;

    •    develop and implement policies and procedures for:


8
 If a foreign entity chooses to have a financial-related audit pursuant to 45 CFR § 74.26(d), the same due dates
apply. (See Clarification of Audit Requirements of For-Profit Organizations Including SBIR/STTR Grantees, issued
by the HHS, National Institutes of Health, Jan. 11, 2006).


                                                       8
        o ensuring that PEPFAR funds are not used for unallowable expenditures and

        o properly tracking all grant fixed assets;

    •   use the exchange rate in effect at the time it prepares the FSR;

    •   develop and implement policies and procedures to:

        o account for award adjustments and expenses in the general ledger and

        o reconcile progress report information with supporting documentation; and

    •   submit annual audit reports in a timely manner to the applicable United States agency.

OTHER MATTERS

NHLS did not credit back the proceeds of grant-related equipment sales totaling $102,438 to
CDC. Pursuant to 2 CFR part 230, Appendix B, § 18(a)(1), gains on the sale of depreciable
property shall be included in the year in which they occur as credits to cost groupings in which
the depreciation applicable to such property was included.

On March 31, 2011, NHLS sold grant-related equipment to a finance company in a sale and
leaseback arrangement and did not credit the proceeds back to CDC. Equipment sales totaling
$3,183 related to 9 equipment items purchased with PEPFAR funds for the budget period under
review. The remaining $99,255 in equipment sales was for 173 equipment items purchased with
other PEPFAR and CDC grant funds. We are not making any recommendations for the
equipment sales as the majority was related to grants that were not covered by the scope of our
audit.

NATIONAL HEALTH LABORATORY SERVICE COMMENTS

In written comments on our draft report, NHLS generally disagreed with our first and third
recommendation and generally agreed with our remaining recommendations. NHLS provided
additional documentation meant to support some of the expenditures that we had determined to
be unallowable.

Regarding our first recommendation, NHLS did not agree that $101,009 of the $133,821 that we
questioned was unallowable. Specifically:

    •   NHLS stated that it budgeted for and that CDC approved the following $72,475 of
        expenditures: 1) administrative fee for delivery charges ($19,719) and equipment costs
        ($5,662); 2) research consumables ($2,343), and 3) video conferencing equipment
        ($44,751).


                                                 9
    •   NHLS stated that $8,321 in catering expenses should be allowable because CDC had not
        advised NHLS that catering was not allowed.

    •   NHLS stated that the hotel group payment of $20,213 had been reversed “resulting in a
        nil effect.”

Regarding our third recommendation, NHLS did not agree that $49,568 in catering expenses was
unallowable. NHLS stated that CDC did not advise NHLS that catering expenses were
unallowable until after the charges were made.

In addressing our remaining recommendations, NHLS stated that a number of processes and
systems have been implemented to ensure that tighter controls are in place. NHLS’s comments,
excluding the supporting documentation, are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

The additional documentation that NHLS provided with its comments did not cause us to change
any of our findings or recommendations. Regarding the $101,009 included in our first
recommendation with which NHLS did not agree was unallowable, we determined that
documentation did not support the expenditures. Regarding the $49,568 in catering expenses
included in our third recommendation, we determined that these expenses were not approved in
the budget and did not meet the exceptions of the HHS Grants Policy Statement. We maintain
that our findings and recommendations are valid.




                                              10
APPENDIX
                                                                                                                                              Page I of2


APPENDIX: NATIONAL HEALTH LABORATORY SERVICE COMMENTS


                                                                                                     1 ModderloMein Road , S&l'ldri~h.1m. 203 ~
                                                                                                                          Tel: •'27 (0)1 1 386 637a




Ms. Sheri Fulcher
Ragton31 iMp&C{Of General fof Audi1 Services
Office o f Aud"Jt Services, Region V
233 Notth Michigan SlAte t 360
Chicago, IL 60601

J uno 20. 2013

Dea r Ms. Fulcher.

This latter serves as a respon se 10 your le tter' ct~ted April S, 2013, regarding the 'Draft Report for the NS1fonal Health
laboratory Service ( A·0$·12·00024}, fOt the periOd or Seple mber 30, 2009 to September 29, 2010 :

The National Health Laboratory Service (NHLS) disttoreas wi lh a nu mber of audit 6ndlngs presented and duly
requests th at the audl1 r epon be re\lf.s&d upon r eview or th& &:x~ana1ions given. Had lhese fl'ldlngs been pteson10d
and disa.essed du ring the covr$e of lh8 .audil or at 1M dOse o ut meeting, it would have been re$OI'iecl lmme<llotol y,
Going forwNd, tn order for the NHLS lO manage the cooperative agreement appropriately, It would be 3;>preda tod
that findings are brough t to OU!t ancntiOn immediately so cortrols and prooeasaa c~ n 1:>e implemented !f noe<f be to
prevent any rnjguoo of funds . &'nco th-en, a f'lun'IIXH of pJooesses and sys;eme have been Implemented to ensure
dgh ter (X)ntrols ate In plaoe. Belew aro the responses to tho audit report:

1. U~U~llow:.blo financial transacti ons
   I. Loctll aoeommodalion e.xpenses. S32.812 

        The Incorrect project n umber was used. This cos1 was for SAFELTP resldotnl$ aOO $hould N v.o bGen 

        <f~~ 6S)aif\Sf yea; 1 Carry forward. Budge! was available for this cost on SAj:"ELTP yoat 1 cany forward 

        budget This vlill then be a reallocation and proof of budge£ has been a tt3Ch6d. 


  II .   Oefvery charges. $ 19,719 

         Noo concullence- The NHl S used the a dministration fee to covor the cost ofdelivery charges on a CDC 

         pr ojt:ld. This cost was budgeted for and approved by CDC in ' he NHt $ budg et. 


 i l.    Cateril'g expenses • $8,32·1 and $ 49,568 

         Non concurrence - NHt S was not lni.tlslly W ised by COC SA that C<:l tcring was not ~lowed. As per the 

         pr<Mous verbal discussions with CDC SA , It was cost e ffcc::tive to h ost trainings and meetings on site with 

         p rovision for catering than obtelnlng ~ ve.nu e o vt:s:lde the PI'O:mf:scs. Communication was received the 

         following the year that catering is considered eo unaUOW&ble cost and should no longer be expensed on a 

         CDC gran t Communicai ion was rhen sent imrnedfately to atll PI'$ and no caterilg has been expensed since. 


 iv. 	 Equipmen t • $5,662 

         Non concurrence- The NHt $ used iht adrnirli® a tion fee to oover the cost of equ ipment needed. l r was: 

         agreed w!th COC that the ttdm.itli$ltati0n fee wouSd be used tat the discretion ofNHLS which W8$ bvdget&d 

         for and approved. 


 v. 	 Reseatch Consu mables • $2,343
         Non cono.r'roncc- The oxponse was drawdawn against tha. budget o f 96201 whk;h WM the oontinuation o f
         proJecl 961 16. Su pplies were budgeted for in p roJect 96201 .

 vl 	    Vfdeocon fefoncing EQuipm.ont. $44 ,751
         Non concullence . As noted in the audit repoc1. the p urchase was apptoved by COC an<t the in tension of its
         U$C was documen ted on th e application, one being , •Hosting ma nagement and ott'ler meeting.s amongst the
         different governance, academic sod technical SIJ"Uctv!es o f the NHl.S ~nd outside groups o r per$0ns through
         video conference and web Hnks.'




                                               Ct'ofloll141'90" Pro!Algor'da: PC!nM ~u!y Cl't.r:lt!own.Of Md'Wnll!l !';anc!QI* CE-0 $e9•1'11lty
~ "'~ 1 Mocllferi:llllelnAo:ta. Sanclrinllhllln.. JictlilnnK~ &Y.It!M bJ ~ Atc)di$!U ~I.e 8$9X8. Sandlin51han'l. 2 131. SQI.IIht<.flto
                                                                                                                                                •
                                                                                   ft;l -t:;l)' (0)11 :!U$:XIW'Il4!6000 NH'..·S(r.4!>71 -•.nll.. ~l$
                                                                                                                         Pl..,~fe   ITIIll"ttc!t: ~2M
                                                                                                                      Page 2 of 2



     .-r.
      y
              NATIONAL HEALTH 

              LARORATORY SERVICE 



           The videocooferencklg uses lhe bandwidth $up~.llied and paid for by the NHLS. TechnicaJ support Is 

           provided by the NHLS IT Oeparlnlent. Any repaii"SaM maintenance of the system is paid for by the NHLS 

           withoul requesting for funding from CDC. CDC ha$ provkktd the equipment however NHLS has e»-funded 

           this by providing lhe bandwldlh and technical svpp:H'l. 

           The NHLS has therefore con ltibuted 10 the oontin~d o poralions of the equipment and will expend thee­ 

           leamlng platform . 


  vii.     Ho tel Group cancefled paymont .. $20.213 

           Non oonCiJtrence - ThiS It: not 3 notal group ea~latioo. The incorrect supplier wss selec::ted Md the 

           transaction reversed tnereattcr r esulting in a nil effecl The correct invoice was then processed. 

           IN0002 7293 b for salarieS to Wils HC<'IIth consortium f« R 154 149.18. 


 ;Ill. 	   VAT - $2,379 

           Cooourrence - The NH LS will rei mbu rse CDC with ihe amount of $2 379. 


2. Pft.~raHon of the FSR 

The '~" ms:s Pfe~ed with lhe understanalng tnat tne agreeo eXChange rate or R7.s to $1 IS usoo. :Suppottmg 

docvmer'lation of the ¢3k:.ulation w-dS submitted with the F~R to CDC and no commenc or ref$CtiOn was mad& 

rogardtng the method used. Once NHLS staff received co: Grant Adm!nls1ra1lon training "" 201 2, this o~tor was 

IC!enttfied and the oo~ prOC&s:s has been implemented going forward. 


3. Audit rtporU 

The gWdonoo received from CDC was to send all audit reports to t~rn cilect!y. Foi!OWfng thO CMS visi1with Dionne, 

tho NHLS has sonl the audit reports to National Elaernal Audit R~v Center. 


4, Oovofopment of policies and procedures 

The NHLS has since implemented a numberofnew prcx;esses.. Al l requi siliOO$ and order:s are approved 

etscl1onCally and fofbw the approval hierarchy within Orecb I.e . onoe a reqvisitio nlorder has been captured , the PI 

approves fo£10\..,lng Whic:tl the Gran ts Ad ministrator a"CC lhe (:lrants Mb i'Wlger approves r espectively. The budget is 

dispta~ed for every requisi1ion reflectJng the commltmOtll$ t'l'ld funds ~V'dila ble. This process ensures that budgets 

are adhered to. 

The Oracle projects system has replaoed l.he General Le<Ygtr. E<.Wih project i$ given a projecl nurrber. All 

1ransactlons l hal appear on a protect are drawn from thto oUt~!' sub modules Yof'lich elim~ata any manval lntetVentlon . 

Joum als cannot be captured to these l)f'Oje<:ls. This onsul't$ tighter toob'ols on each project and ell award 

adjustments are captured on tho system. 

Flowoentric has been Introduced to manage :-:md track 3S$GI.S. ThO system will r andomly se&ect assets and send an 

email to the Lab/Depanment Manager few verificatiOn. Once the veriftc:<dion has been done, the Lab/Department 

Managerwm send the relevant response. 


Thank you for the opportunity to l'e$f)Ond to the OIG recom f'7lsndetions. Pleaoo do noi hesitate to t»ntact us should 

you r.,qulrt: ~ny funhCf _,formation. 


Recards




Sag;.& Pilla:y
Chief Executive Officer
Notional Health laboratory Se.•m='-----~
1 Modderlontein Road
Sandr ingham
South Africa




                                                                                                                            •
